HHS/OIG, Audit - "Review of Quality Improvement Organization in New York
State," (A-02-06-01023)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Quality Improvement Organization in New York State," (A-02-06-01023)
March 10, 2008
Complete
Text of Report is available in PDF format (2.73 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Senate Finance Committee requested that we assess the
fiscal integrity of the Medicare Quality Improvement Organizations with respect
to six specified fiscal integrity areas.  Of the $11.3 million of costs
reviewed, $11.1 million appeared reasonable for Federal reimbursement.  Of the
remaining costs, the Island Peer Review Organization, Inc. (IPRO), incurred
$77,358 of costs that were unallowable and $157,218 of costs that may not have
complied with Federal requirements.
We recommended that IPRO (1) refund $6,755 of unallowable duplicate meal costs,
(2) reduce the indirect cost pool by $10,000 for unallowable board of directors
compensation, (3) refund $60,603 of incorrectly classified direct costs and
increase the indirect cost pool accordingly, and (4) work with the CMS
contracting officer to determine what portion of the $157,218
conference-related costs claimed during the audit period were unreasonable and
therefore unallowable and so should be refunded.  IPRO generally disagreed with
the findings.